Btetrict of Columbia
Court of &ppeate
No. 19-CV-1254

F,1

E ,0

JAN 27 2021
DISTRICT OF COLUMBIA
COURT OF APPEALS

JOANNE TAYLOR-COTTEN,
Appellant,
2018 CAP 1462

v.

DISTRICT OF COLUMBIA
PUBLIC SCHOOLS,
Appellee.
BEFORE:

Glickman and Thompson, Associate Judges, and Fisher, Senior Judge. *
JUDGMENT

On consideration of appellee’s motion for summary affirmance and
supplemental appendix; appellant’s brief and appendix; appellant’s lodged reply,
construed as a supplement to her brief; and the record on appeal; it is
ORDERED, sua sponte, that the lodged supplement to appellant’s brief is
filed. It is
FURTHER ORDERED that the motion for summary affirmance is granted.
See Oliver T. Carr Mgmt., Inc. v. Natl Delicatessen, Inc., 397 A.2d 914 (D.C. 1979).
Appellant argues the Office of Employee Appeals (OEA) erred in finding appellee
complied with its employee evaluation process because it failed to schedule and
conduct her required, post-evaluation conference. Upon review of the record, we
conclude substantial evidence supports OEA’s finding that appellee complied with
the evaluation process when it made multiple attempts to schedule a post-evaluation
conference with appellant to no avail. See Stevens v. D. C. Dep t ofHealth, 150 A.3d
307, 312 (D.C. 2016) (“‘[W]e review the OEA’s decision, not die decision of the
Superior Court, and we must affirm the OEA’s decision so long as it is supported by
substantial evidence in the record and otherwise in accordance with law.’”) (citation
omitted). Appellant failed to preserve her argument that OEA wrongly applied the
2015-16 evaluation requirements to her 2014-15 evaluation; however, reviewing her
argument on the merits, we must reject her claim because the evaluation process for
both school yearn did not differ in any material respect and the 2014-15 evaluation
form notified appellant that her evaluation would be valid as long as appellee made

No. 19-CV-1254
two attempts to schedule a post-evaluation conference. See Baldwin v. DC. Office

of Emp. Appeals, 226 A.3d 1140, 1143 n.5 (D.C. 2020) (“[W]e will not ‘consider
contentions not presented before OEA at the appropriate time. ) (brackets and
citation omitted); accord Goodman v. District of Columbia Rental Hous. Comm n,
573 A.2d 1293, 1301 (D.C. 1990) (“The question is whether the circumstances of
this case are sufficiently exceptional to warrant our consideration of an issue which
[appellant] has failed meaningfully to preserve.”). Finally, we conclude that OEA
did not err in declining to consider appellant’s discrimination and workplace
complaints because, based on the parties’ collective bargaining agreement, these
claims are outside the scope of OEA’s review of appellant’s. termination, which is
limited to adherence to the evaluation process only. Cf Battle v. District of
Columbia, 80 A.3d 1036, 1038 (D.C. 2013) (“The CMPA authorizes the [Public
Employees Relation Board (PERB)] to ‘[djecide whether unfair labor practices have
been committed and issue an appropriate remedial order.’”) (citation omitted); ElAmin v. D.C. Dep’t of Pub. Works, 730 A.2d 164, 165 (D.C. 1999) (“We do not
decide the question whether [appellant’s retaliation claim] before the OEA was
sufficient to warrant a hearing, for the appeal must be dismissed on jurisdictional
grounds.”). It is
FURTHER ORDERED and ADJUDGED that the order on appeal is affirmed.
ENTERED BY DIRECTION OF THE COURT:

JULIO A. CASTILLO
Clerk of the Court

Copies e-mailed to:
Honorable Yvonne Williams
QMU - Civil Division

of Columbia f
Court of gppeate
No. 19-CV-12S4

L E |
MAR 8 2021

DISTRICT OF COLUMBIA
COURT OF APPEALS

JOANNE TAYLOR-COTTEN,
Appellant,
v.

2018 CAP 1462

DISTRICT OF COLUMBIA
PUBLIC SCHOOLS,
Appellee.
BEFORE:

Glickman and Thompson, Associate Judges, and Fisher, Senior Judge.
ORDER

On consideration of appellant’s motion to recall the mandate, it is
ORDERED that the motion to recall the mandate is denied. Appellant did not
identify any specific error in this court’s opinion and reiterates the arguments the
court previously considered in affirming the Superior Court order. To the extent
appellant attaches a lodged petition for rehearing and a motion for an extension of
time that raise the same claims raised in die motion to recall the mandate, even if
properly filed, the requests would be denied for the same reason we deny die motion
* to recall the mandate.

PER CURIAM

Copy mailed to:
Joanne Taylor-Cotten
12405 Gable Lane
Fort Washington, MD 20744

No. 19-CV-1254
Copies e-served to:
Andrew Delaplane, Esquire
Assistant Attorney General
Loren L. AliKhan, Esquire
Solicitor General for DC
cml

Notice: This decision may be formally revised before it is published in the District of Columbia
Register and the Office of Employee Appeals’ website. Parties should promptly notify the
Office Manager of any formal errors so that this Office can correct them before publishing the
decision. This notice is not intended to provide an opportunity for a substantive challenge to the
decision.
THE DISTRICT OF COLUMBIA
BEFORE
THE OFFICE OF EMPLOYEE APPEALS
In the Matter of:
)
)
)
)
)
)
)
)
)

JOANNE TAYLOR-COTTEN,
Employee
v.

D.C. PUBLIC SCHOOLS,
Agency

OEA Matter No. 1601-0072-16

Date of Issuance: January 30, 2018

OPINION AND ORDER
ON
PETITION FOR REVIEW
Joanne Taylor-Cotton (“Employee”) worked as a School Counselor with D.C. Public
Schools (“Agency”). On June 27, 2016, Agency issued a notice of termination to Employee.
The notice provided that under IMPACT, Agency’s assessment system for school-based
personnel, an employee who received a final IMPACT rating that declines between two
consecutive years from “Developing” to “Minimally Effective,” was subject to separation.
Employee was rated “Developing” for the 2014-2015 school year, and her final IMPACT rating
for the 2015-2016 school year was “Minimally Effective.” As a result, she was terminated
effective August 5, 2016. i
Employee filed a Petition for Appeal with the Office of Employee Appeals (“OEA”) on

Petition for Appeal, p. 5 (August 1,2016).

r

1601-0072-16
Page 2

August 1, 2016.

She argued that she was wrongfully terminated and discriminated against.

Specifically, Employee alleged that she was not provided with a private office or telephone; she
did not receive assignments; and she was not allowed to attend trainings.

Moreover, she

explained that she received excellent previous evaluation ratings and that ninety-five percent of
her ninth grade students were promoted with above-average test scores.

Accordingly, she

requested that her termination be investigated and that she be reinstated to a permanent position.
Agency filed its Answer to Employee’s Petition for Appeal on September 1, 2016. It
asserted that it properly followed the IMPACT process. Agency explained that Employee was
terminated because of a “Developing” rating for the 2014-2015 school year and a “Minimally
Effective” rating for the 2015-2016 school year. As for Employee’s discrimination claims,
■5

Agency argued that OEA was not the proper forum to address these issues.

Therefore, it is

Agency’s position that Employee was properly terminated under IMPACT.4
On September 14, 2016, the OEA Administrative Judge (“AJ”) conducted a Status
Conference and ordered that the parties file Pre-hearing Statements. In Employee’s Pre-hearing
Statement, she provided that she did not meet with the Principal (“Evaluator”) regarding her
IMPACT score of “Developing.” She also alleged that she did not receive a meeting or a
performance plan to discuss her score. Further, Employee provided that the working conditions
were unsatisfactory. She noted that there were cement holes in the parking lot; that a ceiling
collapsed; and that there were rodents in the building. Therefore, she requested a hearing, back
pay, reinstatement, attorney’s fees, and the removal of her last two evaluations from her record.5
Agency filed its Pre-hearing Statement on September 27, 2016. It maintained that the
2 Id. 2 and 8-10.
3 Moreover, it provided that Employee filed an Equal Employment Opportunity Commission (“EEOC”) complaint
to address these allegations.
4 District of Columbia Public Schools’ Answer to Employee’s Petition for Appeal, p. 1-5 (September 1,2016).
5 Pre-Conference Hearing Submissions, p. 3-5 (September 22,2016).

1601-0072-16
Page 3

IMPACT policies and procedures were properly followed. Agency explained that Empl

oyee was

evaluated twice during her assessment cycles for the 2014-2015 and 2015-2016 school years. It
contended that the assessments were pursuant to IMPACT based on the following components:
Counselor standards, Teacher-Assessed Student Achievement Data, Commitment to the School
Community, and Core Professionalism.

Thus, Agency asserted that it properly terminated

Employee as a result of her “Developing” and “Minimally Effective” ratings.6
On April 7, 2017, the AJ issued his Initial Decision. He ruled that pursuant to Brown v.
Watts,7 the Court of Appeals held that OEA is not

junsdictionally barred from considering

claims that a termination violated the express terms of an applicable collective bargaining
agreement (“CBA”). He opined that OEA’s jurisdiction over this matter is limited to Agency’s
adherence to the IMPACT process it instituted at the beginning of the school year (emphasis
added). The AJ found that Chapter 5-E of D.C. Municipal Regulation (“DCMR”) §§1306.4,
1306.5 gave the superintendent of Agency the authority to set procedures for evaluating its
employees.8 Further, he explained that while Employee maintained that her

scores were unfair,

she did not provide any evidence to support her claim that the IMPACT evaluation process had
not been followed; nor did she specify that the Evaluator’s comments were untrue,

He asserted

that Employee did not proffer any credible evidence that controverted any of the Evaluator’s
comments.

Moreover, the AJ found that Employee’s work performance was evaluated in

accordance with the IMPACT rules. The AJ held that the Evaluator made two unsuccessful
attempts to have a second conference with Employee. Accordingly, he provided that because

7 9yiA2A^l(Abla\ 1^ 201 ^h°°lS Pre'hearinS Statement, p.-l-5 (September 27, 2016).
8 5-E DCMR § 1306 provides in pertinent parts as follows-

1601-0072-16
Page 4

Employee’s final IMPACT score resulted in a “Developing” rating
one year and a “Minimally
Effective rating the subsequent year, Employee was appropriately terminated from her position.
As it related to Employee’s complaints regarding her work conditions, the AJ ruled that the
complaints were not relevant to her IMPACT evaluations, nor
were they legal grounds for
overturning Agency’s action. Accordingly, he upheld Agency’s termination action.’
Employee disagreed with the Initial Decision and filed a Petition for Review with OEA’s
Board on April 20, 2017. She contends that Agency failed to adhere to the IMPACT process by
not conducting a conference with the Evaluator.

Employee again argues that she was not

provided with a telephone or private office. Additionally, she outlines all of the resources and
tutoring opportunities that she provided to Agency.

Therefore, she requests that she be

reinstated; receive back pay and damages; have her last two evaluations rescinded;

and provided

attorney’s fees.10
Agency filed a Response to Employee’s Petition for Review

on May 19, 2017.

It

maintains that Employee was properly evaluated. Agency explains that during both school
years, Employee was either provided post-evaluation conferences
schedule them, as required by the IMPACT guidelines.

or attempts were made to

As it relates to Employee’s alleged

work conditions, Agency provides that Employee was evaluated on her role

as a Counselor.

Accordingly, it states that its actions to terminate Employee are proper and requests that the OEA
Board deny Employee’s request to remand the matter to the AJ because there is no new material
facts or erroneous application of law or fact presented in the appeal.11

Dlstnct of Columbia Public Schools' Response to Employee’s Petition for Review, p.1-7 (May 19,2017).

1601-0072-16
Page 5

The Superior Court for the District of Columbia recently issued a decision
IMPACT evaluation process. In Lauren Jones

addressing the

v. District of Columbia Public Schools, et al.,

Case No. 2015 CA 005054 P(MPA)(August 31, 2016), the Court explained that “the CBA
established the extent to which the teacher evaluation process may be subject to grievance in §§
15.3 and 15.4. Under the grievance process, OEA can
only evaluate whether Agency followed
the evaluation process it established and had just cause to terminate Petitioner.”
Employee was a member of the Washington Teacher’s Union (“WTU”)
OEA is governed by the terms of the CBA between the WTU and Agency.
15.4 of the CBA provides that “the standard for

. As a result,

Specifically, Section

separation under the evaluation process shall be

just cause’, which shall be defined as adherence to the evaluation process only.” Thus, as the
AJ ruled, OEA could only determine if Agency adhered to the evaluation process.
The Superior Court provided in Jones that the responsibility of the AJ i
is to review the
evaluation process in place and ensure that the Employee was not arbitrarily removed from her
position. As the Jones Court noted, given the broad latitude that Agency had to create and
implement the system of its choosing for evaluating employees, OEA has limited discretion to
review the system it has established. See Washington Teachers Union Local #6

v. Rhee, 2009 CA

007482 B, 2012 D.C. Super. Ct„ September 7, 2012) (acknowledging that “it is not for the Court
to second-guess the judgments of the Mayor and the Chancellor regarding how to

manage DCPS,

when those judgments were made in the exercise of the Mayor and the Chancellor’s lawful
authority.”).
The AJ outlined the IMPACT process in great detail, and he accurately held that Agency
did comply with the process.

In accordance with the IMPACT guidelines, Employee was

properly removed from her position because she received

a “Developing” then a “Minimally

1601-0072-16
Page 6

Effective” rating.12

Moreover, she was assessed by the Principal according to IMPACT

guidelines. The guidelines provide the following:
... As part of each assessment cycle, you will have a conference with
your administrator. ... If your administrator makes at least two
attempts to schedule a conference with you prior to the Cycle deadline
L,J and you are unable to meet or unresponsive, the assessment will be
valid without the conference. Valid attempt methods include, but are
not limited to, phone calls, text messages, emails, notes in your school
mbox, and/or in-person conversations.13
Agency provided email and calendar notes to establish its

attempts to assess Employee.1*1 Given

OEA’s limited scope of review , we agree with the AJ’s determination that the IMPACT p
rocess
was properly followed. Accordingly, we must deny Employee’s Petition for Review.

12 District of Columbia Public Schools’
Answer to Employee’s Petition for Appeal, Tab #5, p. 29 (September
2016).
1,
13 Id., Tab #6, p. 8.
District of Columbia Public Schools Response to Employee’s Petition for Review, Tab#l (May 19,2017).

1601-0072-16
Page 7

ORDER
i

Accordingly, it is hereby ORDERED that Employee’s Petition for Revi
lew is DENIED.
FOR THE BOARD:

Sheree L. Price, Chair

Vera M. Abbott

Patricia Hobson Wilson

P. Victoria Williams

Jelani Freeman

Either party may appeal this decision on Petition for Review to the Superior Court of the District
of Co umbia. To file a Petition for Review with the Superior Court, the petitioning party should
consult Superior Court Civil Procedure Rules, XV. Agency Review, Rule 1.
? ^

Filed
D•C. Superior Cour
10/09/2019 09:19AM
Clerk of the Court

IN THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION

JOANNE TAYLOR-COTTEN,
Petitioner,
2018 CA 001462 P(MPA)

y.

DISTRICT OF COLUMBIA, et al.,
Judge Yvonne Williams

Respondents.

2BPER GRANTING PETITION FOR REVIEW AND AFFIRMINr- an™™
DECISION
Before the Court is Petitioner Joanne Taylor-Cotten’s Petition for Review of Ag
ency
Decision, filed on March 2,2019. Petitioner filed her brief on February 22,2019. Respondent
The District of Columbia Public Schools’ (“DCPS”) filed its opposition brief on March 25

, 2019.

Petitioner did not file a reply brief.1 For the following reasons, the Petition for Review shall be
GRANTED, and the Agency Decision shall be AFFIRMED.
I. BACKGROUND
Petitioner seeks review of the District of Columbia Office of Employee Appeals (“OEA”)
decision to uphold DCPS’ termination of Petitioner. Petitioner worked

as a DCPS School

Counselor. Record (“R.") at 1106. On June 27,2016, DCPS issued a notice of termination to
Petitioner. U. Under IMPACT, the DCPS personnel performance evaluation system
employee is subject to termination when their final IMPACT rating declines

, an

over two

consecutive years from “Developing” to “Minimally Effective.” Id. Petitioner received a
Developing rating for the 2014-2015 academic year, and a “Minimally Effective” rating for the
2015-2016 academic year. Id. DCPS terminated Petitioner effective August 5, 2016, because of

order entered on May 9,2019. HoTev^PedL^

^ Whkh ** C0Urt gTanted in 311
1

her declining IMPACT ratings. Id. Petitioner filed an

agency appeal with the OEA on August 1,

2016. Id. Petitioner argued that she was wrongfully terminated and discriminated

against because

she was not provided with a private office or telephone; she did not receive assi
assignments; and she
was not allowed to attend trainings. Ziat 1107. Furthermore, she argued that the IMPACT
process was not properly followed because she did not have a meeting with the Evaluator to
discuss her performance score. Id. On September 1, 2016, DCPS filed its Agency Answer to her
Petition for Appeal, stating that it properly followed the IMPACT p

rocess, and that the OEA did

not have jurisdiction over the discrimination claims. Id.
On April 7, 2017, the OEA Administrative Judge (“AJ”) issued his Initial Decision, and
he ruled that OEA’s jurisdiction over the matter is limited to reviewing DCPS’ adherence to the
IMPACT process. Id. at 1108 (citing to Brown v. Watts, 933 A.2d 529 (D.C. 2010)(holding that
the OEA is not jurisdictionally barred from considering claims that a termination violated the
express terms of an applicable collective bargaining agreement)). The AJ found that the DCPS
Evaluator twice attempted to have a conference with Petitioner and

was unsuccessful both times

because Petitioner was non-responsive to the meeting requests. R. at 1108. As such, the AJ
upheld the DCPS termination of Petitioner. Id. at 1109.
Petitioner filed a Petition for Review of the Initial Decision with the OEA Board on April
20, 2017, reiterating that DCPS failed to comply with the IMPACT process because

no

conference was conducted with the Evaluator. Id. In its Opinion and Order for Petition of
Review, the OEA upheld the AJ decision, finding that “[t]he AJ outlined the IMPACT process in
great detail, and he accurately held that PCPS] did comply with the process.” Id. Furthermore,
the OEA found that the IMPACT guidelines specifically provide:
•y Aspart of each assessment cycle, you will have a conference with your
administrator.... If your administrator makes at least two attempts to schedule a
2

conference with your pnor to the Cycle deadline [,] and you are unable to meet or
unresponsive, the assessment will be valid without the conference. Valid «attempt
methods include, but are not limited to, phone calls, text messages, emails
notes
in your school inbox, and/or in-person conversations.
Id, at 1110 (quoting the IMPACT guidelines, DCPS Response Tab #6, p. 8). Accordingly, the
OEA upheld the AJ Initial Decision and denied the Petition for Review. Id.
On March 2,2018, Petitioner filed this Petition for Review, seeking a review of the
OEA’s Opinion and Order issued on January 30, 2018. Specifically, Petitioner argues that the AJ
erred by not finding an IMPACT process violation because the required conference
and that the 2015-2016 IMPACT evaluation of “Minimally Effective”

was not held

was a result of retaliation.

Petitioner filed her brief on February 22,2019. Respondent filed its opposition brief on March
25,2019, arguing that the Petition for Review should be denied because the Petitioner did

not

cite to the agency record,2 DCPS followed the IMPACT process, and OEA lacks jurisdiction
over any alleged retaliation. Petitioner did not file a reply brief.
II. STANDARD OF REVIEW
The Superior Court has jurisdiction to review a final decision of an

agency of the District

of Columbia pursuant to Superior Court Agency Review Rule 1. “This Court shall base its
decision exclusively upon the administrative record and shall

not set aside the action of the

agency if supported by substantial evidence in the record as a whole and not clearly
a matter of law.” D.C. Super. Ct. Agency Rev. R. 1(g);

also Walsh

erroneous as

v. D.C. Bd. ofAppeals &

Review, 826 A.2d 375, 378 (D.C. 2003)(acknowledging that “[u]pon review of an administrative
decision, deference is properly accorded an agency’s interpretation of the administrative
regulation it enforces unless it is plainly erroneous or inconsistent with the regulation”).

support
comply with this requirement,

3

Substantial evidence is such relevant evidence

as a reasonable mind might accept as adequate to

support a conclusion.” Smallwood v. Metro. Police Dep’t, 956 A.2d 705, 707 (D.C.
2008)(mtemal quotations and citations omitted). Evidence is not substantial if it is

so highly

questionable in the light of common experience and knowledge that it is unworthy of belief. .See
Metro. Police Dep’t v. Baker, 564 A.2d 1155 (D.C. 1989). However, if there

is substantial

evidence to support the agency’s decision, then the Court must affinn the decision even if there
IS substantial evidence to support a contrary conclusion. Scott v. Police

& Fireman’s Retirement

& Relief Bd., 447 A.2d 447 (D.C. 1982); .see Ferreira v. D.C. Dep’t ofEmployment Servs.
A.2d 310, 312 (D.C. 1995). An agency’s legal conclusions “must be sustained unless they
[arbitrary, capricious, an abuse of discretion, or otherwise not in

,667
are

accordance with law.”

Smallwood, 956 A.2d at 707 (internal quotations and citations omitted).
IH. ANALYSIS
Petitioner presents two issues: (1) whether the OEA AJ erred by not finding a process
violation because there was no conference held relating to her 2014-2015 IMPACT Evaluation;
and (2) whether the Petitioner s 2015-2016 IMPACT evaluation rating of “Minimally Effective”
was retaliatory. Pet. Br. at 1. Because both Petitioner’s brief and the OEA

opinion do not address

any claims of retaliation, the Court declines to address that issue.
Upon a review of the OEA record, the Court finds that there is substantial evidence that
the Evaluator twice attempted to schedule a conference with Petitioner. More specifically, the
Evaluator sent meeting invitations on both June 8 and June 11,2015, as well as a follow-up
meetmg request. R. at 1101. Because DCPS attempted to comply with the IMPACT

process, and

in fact, the 2015-2016 guidelines contemplate two attempts as sufficient for complying

with the

requirement, the DCPS complied with the IMPACT process. Although Petitioner argues that the

4

2014-2015 guidelines do not contemplate two attempts at meeting, and an alternative inference
m favor of Petitioner could be drawn, the Court still fmds them is substantial evidence for an
inference upholding the OEA decision. As such, the Court must affirm th
e OEA decision.
rv. CONCLUSION

'OCKE

0
ns
Cofunib.

Upon a review of the agency record, the Court finds that the

record contains substantial

evidence such that the OEA decision is affirmed.
Accordingly, it is on this 8th day of October, 2019, hereby,
ORDERED that the Petition for Review shall be GRANTED; and it is further
ORDERED that the OEA’s Decision is AFFIRMED; and it is further
ORDERED that this case is CLOSED.
IT IS SO ORDERED.

ie Williams

Date: October 8,2019
Copies to:
Stephanie K. Rones
Counselfor Petitioner
AG Conner P. Finch
Counselfor Respondents

5

other reason that justifies relief "|N|either Rule 59(c) nor Rule 60(b) is designed to enable a
party to complete presenting its case after the court has ruled against if and any motion for
iconsideration of a final order "may not be used to raise arguments or present evidence that
could have been raised prior to the entry of judgment.'7 .See District Mo. / - Pacific Coast
District v. Travelers ( usually & Surety ( V>.. 782 A.2d 269. 278 (D.C. 2001) (quotations,
brackets, ellipses, and citations omitted).
Petitioner has not raised any mistake, inadvertence, surprise or excusable neglect such
that the Court should reconsider its order affirming the OEA's decision. As Petitioner points out
in her motion, all briefs had been fully submitted prior to the Court's ruling. The Court
considered all evidence and arguments presented to it. along with the OKA’s record of its
decision. No newly discovered evidence or law was presented to the Court. Additionally.
Petitioner's inability to contact her counsel is not a reason that would justilv the Court reopening
the case and ruling in her favor. As such, the Motion to Reconsider Opening Case shall be
DENIED.
Accordingly, it is on this 2nd day of December. 2019. hereby
ORDERED that the Motion to Reconsider Opening Case shall be DENIED.

Date: December 2, 2019

2

Copies to:
Stephanie K. Rones
('onusd for Petitioner
Joanne Taylor-Cottcn
1240 Gable l ane
Fort Washington, Ml) 20744
Petitioner
Conner P. Finch
( oim.scl for Respondent

3

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION
JOANNE TAYLOR-COTTEN
Petitioner,
v.
DISTRICT OF COLUMBIA PUBLIC SCHOOLS
and
DISTRICT OF COLUMBIA OFFICE OF
EMPLOYEE APPEALS
Respondents.

2018 CA 001462 P(MPA)
HON. YVONNE M. WILLIAMS

pRPER DENYING PETITIONER'S MOTION FOR RErnNSmtrp a
Upon consideration of the Motion for Reconsideration of Joanne Taylor Cotton
opposition thereto, it is by the Court this

day of__________

__ , 2019; hereby

ORDERED that the motion be, and the same is hereby, DENIED

Judge Yvonne M. Williams
Superior Court of the District of Columbia

Copies via CaseFileExpress toConnor Finch, Esq.
Counselfor Respondent District of Columbia Public Schools
Stephanie Kristina Rones, Esq.
Counselfor Petitioner
Lasheka Brown Bassey, Esq.
Counselfor Respondent Office ofEmployee Appeals

and the

Copy via first-class mail tnJoanne Taylor-Cotton
Petitioner
12405 Gable Lane
Fort Washington, MD 20744

2

SUPERIOR COURT
OF THE DISTRICT OF COLUMBIA
WASHINGTON, D.C. 20001
OFFICIAL BUSINESS
PENALTY FOR MISUSE

r\ ,
v

70f\W6 7f\yLD£-CoT^

\

/

*0/9

t

L

Poor

/

:

!

MLE |

JBfetrfct of Columbia
Court of Appeals;

"i

N3V18 2020
i

DISTRICT OF COLUMBIA
COURT OF APPEALS

No. 19-CV4254
JOANNE TAYLOR-COTTEN,
7

V.

Appellant,

!

CAP1462-18

D.C. PUBLIC SCHOOLS,
Appellee.
ORDER
On consideration of appellee’s motion for an extension of time within which
to file the brief, to which no opposition has been filed, it is
;

ORDERED that appellee’s motion is granted and appellee’s brief shall be
filed on or before December 9, 2020. Any further requests for extensions of time
will be looked upon with disfavor and granted only upon a showing of good cause.

JufieCMlCb

ofApptaCs

Copies e-served to:
Loren L. AliKhan, Esquire
Solicitor General for DC
400 6th Street, NW
Suite 8100
Washington, DC 20001

A.

:

Additional material
from this filing is
available in the
Clerk's Office.

